OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/ETHIOPIA’S
PEPFAR-FUNDED ACTIVITIES
FOR PREVENTION OF
TRANSMISSION OF HIV
AUDIT REPORT NO. 4-663-12-007-P
APRIL 23, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


April 23, 2012

MEMORANDUM

TO:                  USAID/Ethiopia Mission Director, Thomas Staal

FROM:                Acting Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of USAID/Ethiopia’s PEPFAR-Funded Activities for Prevention of
                     Transmission of HIV (Report Number 4-663-12-007-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them as appropriate.
Management comments have been included in their entirety in Appendix II.

The report contains three recommendations to strengthen USAID/Ethiopia’s implementation of its
PEPFAR-funded activities to prevent the sexual transmission of HIV. Based on management’s
comments on the draft report and our review of the supporting documentation provided,
management decisions have been reached, and final action taken on all three recommendations.
Consequently, all three recommendations are closed upon issuance of this report.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     People Living With HIV and AIDS Were Counted Incorrectly................................................. 4

     Reported Results Were Incorrect and Inconsistent ................................................................ 5

Evaluation of Management Comments.................................................................................... 7

Appendix I – Scope and Methodology ..................................................................................... 8

Appendix II – Management Comments .................................................................................. 11

Appendix III – Changes in Attitudes, Knowledge, and Behaviors in Ethiopians Between
the Ages of 15 and 49 ............................................................................................................. 14

Appendix IV – Sexual Transmission Prevention Indicators (Individuals Reached)
Comparing Results for the 6 Months Ended March 31, 2011, With Targets for Fiscal Year
2011.......................................................................................................................................... 15




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
DQA             data quality assessment
FY              fiscal year
MARP            most-at-risk populations
OGAC            Office of the U.S. Global AIDS Coordinator
PEPFAR          President’s Emergency Plan for AIDS Relief
PLWHA           people living with HIV and AIDS
PMTCT           prevention of mother-to-child transmission of HIV
PSI             Population Services International
PwP             Prevention with Positive
SUMMARY OF RESULTS
Launched in 2003, the President’s Emergency Plan for AIDS Relief (PEPFAR) is a
comprehensive approach to combating HIV and AIDS around the world. PEPFAR and its
partner countries confront the epidemics with treatment, prevention, and care and by training
new health-care workers. Through these actions, the program aims to prevent more than
12 million new infections around the world.

PEPFAR encourages the governments in its partner countries, like Ethiopia, to create
comprehensive HIV prevention programs. According to the August 2009 Next Generation
Indicators Reference Guide, the programs can be offered in a variety of ways, such as in
community-based workshops or through media campaigns, and they should be paired with
appropriate medical and social services, such as counseling and testing. Additionally, the guide
states, “Prevention programs should . . . address stigma and discrimination, and increase
awareness of social norms that affect behaviors.” Stressing abstinence, having fewer partners,
and using condoms are also important themes.

The Ethiopian program focuses on (1) prevention of mother-to-child transmission of HIV
(PMTCT), (2) people whose behavior puts them at risk for getting or transmitting HIV, and (3)
“discordant” couples.1 Other components of the program address gender issues that have an
impact on the country’s HIV epidemic and seek to improve access to treatments for rape victims
and others who have been exposed to HIV. For fiscal year (FY) 2011, USAID and the
Department of State requested $324 million for HIV activities in Ethiopia.

The Regional Inspector General/Pretoria conducted this audit with two objectives. The first was
to determine whether USAID/Ethiopia’s HIV sexual transmission prevention activities achieved
their main goal of reducing the sexual transmission of HIV by changing and maintaining
attitudes, knowledge, and behaviors. The second objective was to determine whether
USAID/Ethiopia implemented recommendations from Audit Report No. 9-663-09-008-P
effectively.2

Regarding the first objective, the audit found that USAID/Ethiopia’s activities to prevent sexually
transmitted HIV diseases generally achieved their main goal. As illustrated in Appendix III,
results on seven of eight knowledge indicators3 (also covers attitudes) showed favorable trends
between 2005 and 2011. One result for men—Knowledge that limiting sexual intercourse to
one faithful and uninfected partner can reduce the chances of contracting HIV— was
unfavorable, declining from 79 to 74 percent.

The same survey showed that on three of four behavior indicators, conduct stayed the same or
changed favorably. Results on the conduct that did not improve (Among those [men] reporting
they engaged in higher-risk sex during the 12-month period prior to the survey, the percent of
those who reported a condom was used the last time they had higher-risk intercourse) fell from

1
   A discordant couple is a pair of long-term sexual partners in which one has a sexually transmitted
disease and the other does not, according to MedTerms Online.
2
  “Audit of USAID/Ethiopia’s PEPFAR-Funded Activities and Commodities for the Prevention of Mother-to-
Child Transmission of HIV,” June 25, 2009.
3
  There are actually four knowledge indicators, each of which is divided into women and men.


                                                                                                    1
50 to 16 percent. However, this may be because of a change in the definition of “higher-risk
intercourse” between the two surveys. While the 2005 survey defined higher-risk intercourse as
“sexual intercourse with a nonmarital, noncohabiting partner,” the preliminary report for the 2011
survey did not specifically define the term and instead only referred to “sexual intercourse with
2+ partners in the past 12 months.” The change was made to comply with U.N. reporting
systems, according to ICF Macro officials.4 They and mission officials said the change in
definition makes trend analysis impossible; this audit agrees. They added that a more
comprehensive analysis would be forthcoming when the final survey results are published.

                Audited PEPFAR Activities to Prevent Sexual Transmission of HIV
                                        as of July 2011

                                                                              Life of Project
                            Prime                      Completion
       Project Title                     Start Date                              Amount
                           Partner                       Date
                                                                                    ($)
     HIV Prevention
                         Population
     for Vulnerable                      12/21/2007     12/21/2013                9,886,500
                         Council
     Adolescent Girls
                         Population
     Targeted HIV        Service
                                          3/14/2008      3/13/2012                8,752,676
     Prevention          International
                         (PSI)
                         Save the
     TransACTION                          4/1/2009       4/30/2014               40,000,000
                         Children
     HIV Prevention
     in Large-Scale      World
                                         10/30/2008     12/31/2011                4,750,462
     Construction        Learning
     Sites in Ethiopia
     Grant
                         World
     Solicitation and                     9/1/2004       9/28/2012               10,187,750
                         Learning
     Management
     Total                                                                       73,577,388

Since the above-mentioned activities primarily strive to change and maintain attitudes,
knowledge, and behaviors through training, the audit examined specific training activities
conducted by the programs shown in the table. For these activities, the partners reported how
many people attended training sessions and compared that number with established targets.
USAID/Ethiopia reported to the Office of the U.S. Global AIDS Coordinator (OGAC) that, overall,
the implementing partners were on schedule to achieve their annual targets for the fiscal year;
the mission reported that the numbers were at, near, or exceeding 50 percent of the targets for
the first 6 months. (Appendix IV shows the actual number of people reached for the 6 months
ended March 31, 2011, and the annual targets for FY 2011.) Nonetheless, the audit could not
confirm this assertion because of data quality problems.

Despite the primarily positive answer to the first objective, the audit identified two challenges:

      Counting people living with HIV and AIDS was not done correctly (page 4).
4
    ICF Macro is the U.S.-based organization that managed the survey in Ethiopia and presented the report.


                                                                                                        2
    Reported results were incorrect and inconsistent (page 5).

To improve sexual         transmission     prevention    activities,   the   audit   recommends      that
USAID/Ethiopia:

1. Coordinate a session for partners to clarify how to report target populations under sexual
   transmission prevention, how to follow OGAC guidance, and revise any previously
   overstated achievements, if necessary (page 5).

2. Implement a plan to conduct data quality assessments (DQAs) on all indicators used for
   external reporting at least once every 3 years, including indicators for sexual transmission
   prevention activities (page 6).

3. Direct primary partners, in writing, to perform periodic DQAs of their subpartners, and direct
   agreement and contracting officers’ technical representatives,5 activity managers, and other
   responsible officials to review such assessments periodically and document the results
   (page 6).

Regarding the second objective, the audit found that recommendations from the June 2009
audit were implemented effectively. For example, responsible personnel at health facilities had
taken training in inventory management, which was one of the prior recommendations. In
response to another recommendation, USAID/Ethiopia developed a performance management
plan that includes PMTCT activities to help the mission better manage and evaluate
performance.

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments appear in Appendix II, and our evaluation of management
comments is on page 7 of the report.




5
   On January 1, 2012, USAID changed the term “agreement officer’s technical representative” to
“agreement officer’s representative” to align with changes in the Federal Acquisition Regulation. Because
audit fieldwork was done before the change, this report uses agreement officer’s technical representative.



                                                                                                        3
AUDIT FINDINGS
People Living With HIV and AIDS Were Counted Incorrectly
PEPFAR’s Next Generation Indicators Reference Guide divides target populations for sexual
transmission prevention activities into general high-risk and most-at-risk individuals, who are
reported under indicators P8.1.D through P8.3.D (Appendix IV). These two groups do not
include people living with HIV and AIDs (PLWHA); if someone in this group receives at least six
services (including medical interventions) 6 that are not available to the general high-risk or
most-at-risk targeted groups, he or she is reported under a separate indicator known as
“Prevention with Positive” (PwP, Prevention Indicator P7.1.D).

Despite this requirement, the audit found that the partners overseeing three of five activities
examined (PSI’s Targeted HIV Prevention, Save the Children’s TransACTION, and World
Learning’s HIV Prevention in Large-Scale Construction) had subpartners that were targeting
and reporting significant numbers of PLWHA under indicators P8.1.D through P8.3.D for the
6 months ended March 31, 2011. PSI’s subpartner reported approximately 9,000 PLWHA
under P8.2.D, and Save the Children reported approximately 10,000 PLWHA under that
indicator. World Learning reported approximately 1,200 PLWHA in its semiannual FY 2011
report, which presumably was included in the mission’s semiannual report.

The audit found that partners were reporting PLWHA erroneously for several reasons:

    Agreements and work plans did not reflect the changes in PEPFAR Next Generation. For
    example, PSI has a 2008 agreement modification that specified PwP beneficiaries should be
    counted under sexual prevention transmission activities, but the agreement was not
    modified when the guide was issued in 2009.

    Mission officials wanted to take credit for the numbers of people being reached. They
    believed that since PLWHA were included in sexual transmission prevention sessions, any
    of them who did not receive the six services (as discussed above) included under PwP
    indicator results could be included under indicators P8.1.D through P8.3.D. The officials
    were concerned that if they followed Next Generation, activities that target PLWHA
    populations would not be counted among results achieved.

    OGAC’s guidance and communication to missions, partners, and subpartners was
    confusing. Indicator P8.1.D explicitly states that PLWHA should not be counted under this
    indicator. However, in an apparent typographical error, it then states that PLWHA should be
    captured under indicator P8.1.D.

As a result, the numbers of people from targeted populations reported as having attended
education sessions under the sexual transmission prevention indicators are overstated because
they included “untargeted populations” as defined by OGAC guidance. In turn, managers and

6
  The reason that PLWHA did not receive the six services is because the services include biomedical
interventions, which fall under care and treatment, rather than prevention. Providing such interventions
would be outside the scopes of the implementing partners’ agreements, which focused solely on
prevention.


                                                                                                      4
decision makers may not be relying on comparable data for this indicator across countries or
programs. To help resolve this issue, the audit makes the following recommendation.

    Recommendation 1. We recommend that USAID/Ethiopia (1) coordinate a session for
    partners to clarify how to report target populations under sexual transmission prevention
    and instruct partners on following Office of the U.S. Global AIDS Coordinator guidance
    received and (2) revise any previously overstated achievements, if necessary.

Reported Results Were
Incorrect and Inconsistent
Automated Directives System (ADS) 203.3.57 states that USAID missions should confirm that
data used for results management are of sufficiently high quality to support the appropriate level
of management decisions. Such performance data should be as complete and consistent as
management needs and resources permit. In keeping with these requirements, PEPFAR’s Next
Generation requires that people should be counted only once after they have attended all of the
required sessions, and duplicate counting should be avoided. Further, ADS 203.3.5.1
recognizes the importance of data quality standards in managing results and ensuring credible
reporting. As part of this effort, ADS 203.3.5.2 states that data reported to USAID/Washington
that complies with the Government Performance and Results Act of 1993 or for reporting
externally on agency performance must have had a DQA within 3 years before submission.
ADS further states that operating units may conduct quality assessments more frequently.

Despite these requirements, the audit found errors and inconsistencies with data that
USAID/Ethiopia reported to external parties. Although the mission was able to support the data
it reported to OGAC as agreeing with information it received from its implementing partners, and
implementing partners were able to support the data they gave to USAID as agreeing with the
information they received from subpartners, auditors found significant problems with the
underlying information. Specific examples are listed below.

    A subpartner of World Learning was counting individuals attending all eight of the required
    training sessions as eight separate individuals; thus the subpartner reported 64 people
    instead of 8.

    PSI’s subpartner did not keep supporting schedules showing how it calculated the second-
    quarter number of approximately 24,000 beneficiaries reported. Consequently, auditors
    were unable to reconcile the reported numbers from the subpartner with PSI’s records.

    One of Save the Children’s subpartners could not provide supporting schedules or explain
    how the organization calculated 259 beneficiaries (including 74 PLWHA) for the quarter
    ended March 31, 2011, at a particular activity site.

Two factors caused the data quality problems. First, USAID/Ethiopia officials misinterpreted a
recommendation from the June 2009 audit of PMTCT activities that the mission develop a plan
to perform DQAs of PMTCT indicators. While that recommendation did specifically address

7
  ADS 203, “Assessing and Learning,” was partially revised on February 10, 2012. The citations in this
report refer to the previous version of ADS, in effect at the time of the audit.



                                                                                                    5
performing DQAs—the subject of audit—it did not relieve the mission of its responsibilities to
comply with ADS for the other indicators.

Second, mission officials did not communicate adequately to their partners the significance of
assessing the quality of data reported from their subpartners. This is especially important since
the mission does not have the staff—nor is it required—to perform a DQA of the data from all
subpartners, which number in the hundreds under PEPFAR. Therefore, missions have no
choice but to rely on their partners to conduct DQAs of the subpartners’ data periodically. If the
partners do not do so, they could report wrong numbers of individuals who complete the HIV
prevention sessions. Because those numbers become the basis for budget and policies, they
must be accurate and reliable. Hence, the audit makes the following recommendations.

   Recommendation 2. We recommend that USAID/Ethiopia implement a plan to conduct
   data quality assessments on all indicators used for external reporting at least once every
   3 years, including indicators for sexual transmission prevention activities.

   Recommendation 3.         We recommend that USAID/Ethiopia (1) direct primary
   implementing partners in writing to perform data quality assessments of their
   subpartners periodically and (2) direct agreement and contracting officers’ technical
   representatives, activity managers, and other responsible officials to review such
   assessments periodically and document the results.




                                                                                                6
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Ethiopia agreed with Recommendations 1, 2, and 3.
Management decisions have been reached and final action has been taken on all three. A
detailed evaluation of management comments follows.

Recommendation 1. USAID/Ethiopia agreed with the first part of the recommendation to
conduct reporting sessions for PEPFAR implementing partners involved in preventing sexual
transmission of HIV activities, including instruction on following OGAC guidance on the subject
matter. The mission provided documentation of the training session that was held on October 5,
2011, which included reporting on sexual transmission prevention indicators.

USAID/Ethiopia disagreed with the second part of this recommendation to revise its FY 2011
reported figures for sexual transmission prevention activities, arguing that the errors found in the
audit were within an acceptable 10 percent margin of error. On this basis, the mission asked
that the second part of this recommendation be removed from the audit report. Since our audit
tests cannot be projected to the reported populations, we are unable to determine whether the
mission’s assertion is accurate. What we can conclude is that there is a risk of significant
overstatement of the reported numbers based on our audit tests. Since our recommendation
acknowledged that the mission might not find the data reporting errors significant enough to
require revision, we defer to the mission’s judgment on this matter. Based on management’s
comments and the supporting documentation provided, a management decision has been
reached and final action taken on Recommendation 1.

Recommendation 2. USAID/Ethiopia agreed to implement a plan to conduct DQAs on all
indicators used for external reporting at least once every 3 years, including indicators for
activities for preventing sexual transmission of HIV. The mission provided documentation
showing that it had developed such a plan for assessing data quality, including that of
subpartners. Based on management’s comments and the supporting documentation provided,
we consider that a management decision has been reached and final action taken on
Recommendation 2.

Recommendation 3. USAID/Ethiopia agreed to (1) direct primary implementing partners to
perform DQAs of their subpartners periodically and (2) direct agreement and contracting
officers’ technical representatives, activity managers, and other responsible officials to review
such assessments periodically. The mission provided documentation showing that it had asked
implementing partners to perform such assessments. The letter also stated that the contracting
officers’ technical representatives and other responsible mission officials would be monitoring
these efforts. Based on management’s comments and supporting documentation provided, a
management decision has been reached and final action taken on both parts of
Recommendation 3.




                                                                                                  7
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objectives. We believe that the evidence
obtained provides that reasonable basis. The purposes of this audit were to determine (1)
whether USAID/Ethiopia’s sexual transmission prevention activities achieved their main goal of
reducing the sexual transmission of HIV by changing and maintaining attitudes, knowledge, and
behaviors and (2) whether USAID/Ethiopia effectively implemented recommendations from
Audit Report No. 9-663-09-008-P.

The scope of the audit covered sexual transmission prevention results for activities beginning
October 1, 2010, through the end of audit fieldwork on September 29, 2011. The audit team
performed this audit at USAID/Ethiopia; at the primary implementing partner offices of
Population Council, PSI, World Learning (which was implementing two activities), and Save the
Children in Addis Ababa and Awasa; and at the offices of subpartners and Ethiopian
Government organizations in Addis Ababa. This audit was conducted from September 13 to
September 29, 2011.

In planning and performing the audit, the audit team assessed management controls related to
USAID/Ethiopia’s program reporting processes and controls over data quality that were
significant in the context of the audit objectives. The following is a list of those controls.

   A DQA is one form of management internal control. We assessed the quality of the DQAs
   that mission officials performed of various partners involved in HIV prevention. One
   example was that of IntraHealth/Ethiopia conducted on October 14, 2009, by members of
   the mission’s monitoring and evaluation team.

   We reviewed the mission’s annual certification required by the Federal Managers’ Financial
   Integrity Act of 1982 for internal control weaknesses affecting the audit.

   We assessed internal controls over the mission’s reporting procedures of its partners’
   activities. For example, the mission said in its semiannual report that it had reached
   114,082 most-at-risk populations (MARP) through individual or small group interventions.
   Using judgmental sampling, we assessed the reporting process, tracing information from the
   subpartners’ supporting documentation to the primary implementing partners to the mission,
   to determine how that number—and others—were determined. We assessed the mission’s
   internal controls over indicators and similar types of performance information reported by
   partners involved in various sexual transmission prevention activities.

   Another mission internal control procedure is monitoring. We assessed the quality of the
   mission’s monitoring of operations as an internal control mechanism, including whether the
   mission had actually performed any monitoring. For example, we reviewed the monitoring



                                                                                                8
                                                                                       Appendix I


   reports that the mission prepared about the partners that were conducting the sexual
   transmission prevention activities in order to make a proper assessment.

USAID/Ethiopia reported obligations and expenditures of $42.6 million and $34.9 million,
respectively, for all five of the selected sexual transmission prevention activities through
September 30, 2011. The kinds and sources of evidence used included third-party reports,
such as the 2005 and preliminary 2011 Ethiopia Demographic and Health Surveys and our
analysis thereof; mission reports, such as USAID/Ethiopia’s semiannual performance plan and
report for FY 2011; reports prepared by USAID/Ethiopia’s sexual transmission prevention
primary and subprimary partners; and interviews with mission, primary, and subprimary partner
employees. The techniques used to verify evidence consisted of analytical procedures,
interviews with mission and partner officials, and tracing reported information to source
documentation. We also inspected documents that USAID/Ethiopia submitted to the USAID
Chief Financial Officer requesting closure of audit recommendations, as well as final action
correspondence submitted to the mission.

Methodology
To determine whether the sexual transmission prevention activities were achieving their main
goal, the audit team reviewed the results of the 2005 and preliminary 2011 Ethiopia
Demographic and Health Surveys. Our review consisted of inquiries made of individuals who
prepared the survey and analytical procedures performed on the data. During our review,
nothing came to our attention to indicate that the reported figures were not stated fairly.

We also interviewed key USAID/Ethiopia personnel, implementing partner and subpartner staff,
and individual beneficiaries at activity sites in answering the audit objectives.

We selected all three targeted populations for sexual transmission prevention activities to test
the implementing partners’ reported performance outputs. We then selected 5 of 16 sexual
transmission prevention activities. The five selected (1) accounted for significant portions of the
reported results through March 31, 2011, and (2) were still active at the time of audit.

The audit used sampling to support findings, conclusions, and recommendations. We
judgmentally selected items from populations for testing because we believed it was the most
efficient method for drawing conclusions given our time and resource constraints. For the
indicator Number of the targeted population reached with individual and/or small group level
preventive interventions that are based on evidence and/or meet the minimum standards
required, the total figure reported, or population, was 1,028,395; the five selected partners
accounted for 189,329, or 18 percent, of this total, and the number of items tested in the sample
in relation to the population was less than 1 percent. For the indicator Number of the targeted
population reached with individual and/or small group level preventive interventions that are
primarily focused on abstinence and/or being faithful, and are based on evidence and/or meet
the minimum standard, the total figure reported was 595,563; the five selected partners
accounted for 56,574 or 9 percent of this total, and the number of items tested in the sample in
relation to the population was 2 percent. For the indicator Number of MARP reached with
individual and/or small group level interventions that are based on evidence and/or meet the
minimum standards required (by MARP type), the total figure reported was 114,082; the five
selected partners accounted for 101,927 or 89 percent of this total, and the number of items
tested in the sample in relation to the population was 23 percent. Results of these tests using
judgmental sampling cannot be projected to the intended populations.

                                                                                                 9
                                                                                     Appendix I


We judgmentally selected sites and sample sizes based on our risk analyses, as well as on
time, resource, and geographic constraints.         We visited five community-based sexual
transmission prevention activity sites in Ethiopia. Four of the five were located south of Addis
Ababa near the town of Awasa. The fifth was located in Addis Ababa. However, the answer to
the audit objective was not based on the above tests. These output-level indicators directed at
specific populations, if on target, were supposed to manifest themselves in favorable national
demographic trends with respect to maintaining or favorably changing attitudes, knowledge, and
behaviors that are conducive to stopping the spread of HIV. Therefore, we analyzed the 2005
and 2011 surveys for those trends to answer the audit objective.

We also reviewed the agreements, work plans, progress reports, and supplementary documents
of the primary and subpartners that reported the results on the tested output indicators. In
addition, we reviewed applicable laws, regulations, and USAID policies and procedures
pertaining to USAID/Ethiopia’s sexual transmission prevention activities, including ADS
Chapters 200 through 203 and the PEPFAR Next Generation Indicators Reference Guide.

Our materiality threshold was that we would consider the objective had been met if a majority of
the national demographic trends showed positive attitudes, knowledge, and behavior (as
demonstrated by our analysis of the 2005 and preliminary 2011 surveys) were maintained or
favorably improved.

For the second audit objective, all five recommendations needed to be implemented in order to
have a positive finding. We assessed the effectiveness of the mission’s implementation by
making inquiries with responsible mission officials.




                                                                                             10
                                                                           Appendix II




MANAGEMENT COMMENTS


  MEMORANDUM

  DATE:             March 13, 2012

  TO:               Christine M. Byrne, Regional Inspector General/Pretoria

  FROM:             Thomas Staal, USAID/Ethiopia Mission Director /s/

  SUBJECT:          Response to the Audit of USAID/Ethiopia’s PEPFAR-Funded
                    Activities for Prevention of Transmission of HIV (Report Number
                    4-663-12-XXX-P)


  This memorandum presents USAID/Ethiopia’s management response to the March
  2012 RIG/Pretoria Audit of USAID/Ethiopia’s PEPFAR-Funded Activities for
  Prevention of Transmission of HIV. USAID/Ethiopia appreciates the audit report and
  believes that the recommendations will improve program quality and will ensure that
  USAID/Ethiopia’s PEPFAR-funded HIV prevention activities achieve the intended
  programmatic objectives.

  On the basis of the actions taken by the Mission and supporting documentation
  provided, management decisions and final actions have been completed or initiated
  for recommendations 1.1, 2, 3.1 and 3.2. We request that recommendation 1.2 be
  removed for the reasons presented below.


  Recommendation 1: We recommend that USAID/Ethiopia (1) coordinate a session
  for partners to clarify how to report target populations under sexual transmission
  prevention and instruct partners on following Office of U.S. Global AIDS
  Coordinator guidance received and (2) revise any previously overstated
  achievements, if necessary.

  Response to Recommendation 1.1: USAID/Ethiopia concurs with this
  recommendation. USAID/Ethiopia technical staff discussed this issue with the audit
  team during their visit in September 2011. In response, the technical team conducted
  an Annual Progress Report 2011 (APR11) orientation session for PEPFAR partners
  on October 05, 2011. As part of this session, a guidance note was prepared and shared

                                                                                    11
                                                                           Appendix II


along with a Power Point presentation to clarify how to report target populations.
Selected indicators were thoroughly discussed, including PEPFAR prevention
indicators P7.1D, P8.1D, P8.2D and P8.3D during the partners’ meeting. Supporting
documentation including the guidance note, Power Point presentation, meeting
minutes, and e-mail communication with implementing partners can be found in
Attachment 1 of this response document. USAID/Ethiopia believes that final action
has been taken on recommendation 1.1 and requests that the recommendation be
closed upon the issuance of this audit report.

Response to Recommendation 1.2: Only a few sub-partners included data in
PEPFAR prevention indicators P8.1D and P8.2D instead of the more appropriate
umbrella care indicator C1.1D. When sub-partner data for each of the indicators,
P8.1D and P8.2D, are aggregated, the acceptable margin of error (less than 10%) is
not exceeded. This means the errors committed when counting the reached
individuals for these indicators fall within the threshold for data quality. Therefore,
USAID/Ethiopia suggests this recommendation be removed from the audit report.


Recommendation 2: We recommend that USAID/Ethiopia develop and implement a
plan to conduct data quality assessments on all indicators used for external reporting
at least once every three years, including indicators for sexual transmission
prevention activities.

Response to recommendation 2: USAID/Ethiopia concurs with this
recommendation. The HAPN technical team developed a plan to conduct regular
internal data quality assessments (DQAs) in September and began implementation of
DQAs for selected prevention, care and human resources for health indicators in
November 2011. This DQA was extended to prime partners as well as to a few sub-
partners. The DQA team visited sub-partners which are operating in Addis Ababa and
Amhara region. The internal DQA plan and implementation field report can be found
in Attachment 2 of this response document. USAID/Ethiopia also conducts periodic
external DQAs across Mission offices. We will continue implementing internal
and/or external DQAs at least once every three years. With this, USAID/Ethiopia
believes that final action has been taken on Recommendation 2 and requests that the
recommendation be closed upon issuance of the audit report.

Recommendation 3: We recommend that USAID/Ethiopia (1) direct primary
implementing partners to periodically perform data quality assessments of their sub-
partners and (2) Direct agreement and contracting officers technical representatives,
activity managers, and other responsible officials to periodically review such
assessments.

Response to recommendation 3.1 and 3.2: USAID/Ethiopia concurs with this
recommendation. We have developed an official communication instructing partners
to perform periodic DQAs of their sub-partners and stating that AORs/CORs,
Activity Managers and other responsible officials will be monitoring and reviewing


                                                                                    12
                                                                        Appendix II


the implementation of such assessments. The communication that will be sent to
partners can be found in Attachment 3 of this response document. This action will be
completed by March 31, 2012.




                                                                                 13
                                                                                      Appendix III


                           Changes in Attitudes, Knowledge, and Behaviors
                             in Ethiopians Between the Ages of 15 and 49

            Type of Indicator                    2005 (%)   2011 (%)      Trend

Knowledge
General awareness of AIDS
 Women                                             90         97         Favorable
 Men                                               97         99         Favorable
Knowledge that limiting sexual intercourse to
one faithful and uninfected partner can reduce
the chances of contracting HIV

 Women                                             63         65         Favorable
 Men                                               79         74        Unfavorable

Knowledge that use of a condom during
sexual encounters reduces the risk of sexual
transmission of HIV

 Women                                             40         56         Favorable
 Men                                               60         82         Favorable


Knowledge that limiting sexual intercourse to
one faithful and uninfected partner and
condom use during sexual encounters
reduces the risk of sexual transmission of HIV


 Women                                             35         43         Favorable
 Men                                               57         64         Favorable
Behavior

Among those who had sex in the previous 12
months, the percentage of those who reported
having two or more partners during the period

 Women                                             <1         <1        no change
 Men                                                4          4        no change

Among those reporting they engaged in
higher-risk sex during the 12-month period
prior to the survey, the percent of those who
reported a condom was used the last time
they had higher-risk intercourse

 Women                                             24         47         Favorable
 Men                                               50         16        Unfavorable
Sources: 2005 and preliminary 2011 Demographic and Health Surveys by ICF Macro.




                                                                                               14
                                                                                            Appendix IV


 Sexual Transmission Prevention Indicators (Individuals Reached) Comparing Results for
               6 Months Ended March 31, 2011, With Targets for FY 2011

                                                                                        Percent of
      Sexual Transmission Prevention Indicator              Result       Target          Target
                                                                                        Achieved
 P8.1.D – Number of the targeted population reached
 with individual and/or small group level preventive
                                                          1,028,395     2,083,928           49
 interventions that are based on evidence and/or meet
 the minimum standards required

 P8.2.D – Number of the targeted population reached
 with individual and/or small group level preventive
 interventions that are primarily focused on abstinence    595,563      1,034,473           58
 and/or being faithful, and are based on evidence
 and/or meet the minimum standard

 P8.3.D – Number of MARP (most-at-risk populations)
 reached with individual and/or small group level
                                                           114,082       154,828            74
 interventions that are based on evidence and/or meet
 the minimum standards required
Source: USAID/Ethiopia as reported to OGAC.

Note: The audit was unable to reach a conclusion regarding whether the results reported above were fairly
stated; more information is on pages 2 and 3 of the Summary of Results.




                                                                                                      15
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
